                  United States Attorney Anne M. Tompkins
                     Western District of North Carolina
   ________________________________________________________________________
   FOR IMMEDIATE RELEASE                             CONTACT: Lia Bantavani
   WEDNESDAY, MAY 16, 2012                                     704-338-3140
    http://www.usdoj.gov/usao/ncw                       lia.bantavani@usdoj.gov


           BUNCOME CO. MAN SENTENCED TO 30 MONTHS IN PRISON
           FOR IDENTITY THEFT AND AGGRAVATED IDENTITY THEFT

   Two Other Defendants Have Also Been Sentenced in Connection with the Investigation

       ASHEVILLE, N.C. – U.S. District Judge Martin Reidinger sentenced Salimon Ramos,
34, of Vera Cruz, Mexico today to serve 30 months in prison to be followed by three years of
supervised release for identity theft related offenses, announced Anne M. Tompkins, U.S.
Attorney for the Western District of North Carolina.

       U.S. Attorney Tompkins is joined in making today’s announcement by Brock D.
Nicholson, Special Agent in Charge of ICE Homeland Security Investigations (HSI) in Atlanta
and the Carolinas; Guy Fallen, Special Agent in Charge of the Social Security Administration,
Office of the Inspector General (SSA-OIG), Atlanta Field Division; Commissioner Mike
Robertson of the North Carolina Department of Motor Vehicles (NC DMV); Sheriff Charlie
McDonald of the Henderson County Sheriff’s Office; and Sheriff Van Duncan of the Buncombe
County Sheriff’s Office.

        On March 15, 2011, a criminal bill of indictment charged Ramos and his co-conspirator,
Angel Evilio Alvarado-Gonzalez, 32, of Honduras, with aggravated identity theft, production of
false identification documents, and production of counterfeit Social Security cards. The
indictment also charged the defendants with knowingly transferring, possessing and using
without lawful authority another person’s identification. A criminal bill of information charged a
third defendant, Herbert Alexander Guevara-Alvarado, 32, of El Salvador, with production of
false identification documents, production of counterfeit Social Security cards, and possession of
a counterfeit Social Security card with intent to sell it.

        According to court documents and court proceedings, the three defendants manufactured,
possessed and sold counterfeit identification documents, purporting to be Social Security cards
and permanent resident alien identification cards. Court documents indicate that the defendants
obtained personal information from other individuals and used that information to produce and
sell counterfeit identification documents for profit. During the course of the investigation, court
documents indicate that the defendants attempted to sell stolen counterfeit identification
documents to undercover officers conducting the investigation.
       All three defendants pled guilty to the charges. Alvarado-Gonzalez was sentenced in
February 2012 to 30 months in prison, to be followed by three years of supervised release.
Guevara-Alvarado was sentenced in March 2012 to time served, having been in custody since
February of 2011, as well as one year of supervised release. The Court further ordered that the
defendants, who are undocumented aliens, be deported upon completion of their prison
sentences.

       “Counterfeit identification documents compromise the integrity of our nation’s legal
immigration system,” said U.S. Attorney Tompkins. “Together with our federal, state and local
partners we will continue to do whatever is necessary to safeguard the integrity of identification
documents and go after those who operate in the fake document market.”

         “Identify theft is a crime that has far reaching and long lasting negative consequences on
its victims,” said Special Agent in Charge Nicholson. “Additionally, anyone who knowingly and
indiscriminately sells fraudulent identity cards is putting the security of our communities and
even our country at risk, as counterfeit documents can potentially be used by dangerous
criminals and others who are attempting to obscure their identities and cover their tracks.”

        Ramos will be transferred into the custody of the Federal Bureau of Prisons upon
designation of a federal facility. Both Ramos and Alvarado-Gonzalez will serve their federal
prison sentences without the possibility of parole.

       The investigation of the case was handled by HSI, SSA-OIG, NC DMV’s Division of
Motor Vehicles License and Theft Bureau, the Henderson County Sheriff’s Office and the
Buncombe County Sheriff’s Office. The case was prosecuted by Assistant U.S. Attorney David
A. Thorneloe of U.S. Attorney’s Office in Asheville.

                                              ###
